2311 Douglas Street
Omaha, Nebraska 68102-l214

f:'OCKLE

~ L e g a l Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 21-- - IVAN ROSARIO,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of July, 2021 , send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
HORVITZ & LEVY LLP
CHRISTOPHER D. HU (Counsel of Record)
SCOTT P. DIXLER
ANDREA L. RUSSI
3601 WEST OLIVE AVENUE, 8TH FLOOR
BURBANK, CALIFORNIA 91505-4681
(818) 995-0800
chu@horvitzlevy.com
Counsel for Petitioner
Ivan Rosario

Subscribed and sworn to before me this 23rd day of July, 2021.

I am duly authorized under the Jaws of the State of Nebraska to administer oaths.

NERAl NOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Affiant

40946

SERVICE LIST
Elizabeth Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

